Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       Psychosocial Services in
      Skilled Nursing Facilities




                       JANET REHNQUIST
                       INSPECTOR GENERAL

                          MARCH 2003
                         OEI-02-01-00610
                    OFFICE OF INSPECTOR GENERAL

                                           http://www.oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                EXECUTIVE SUMMARY

OBJECTIVE

          To determine whether Medicare skilled nursing facility residents are receiving psychosocial
          services in compliance with federal requirements.


BACKGROUND

          The Omnibus Budget Reconciliation Act (OBRA) of 1987 requires skilled nursing facilities
          (SNFs) to provide "medically-related social services to attain or maintain the highest practicable
          physical, mental and psychosocial well-being of each resident" and specifies that "the services
          provided or arranged by the facility must meet professional standards of quality." The OBRA
          of 1987 further states that a skilled nursing facility with over 120 beds is required to employ a
          minimum of one full-time social worker with at least a bachelors degree in social work, or
          another human service field, and 1 year of supervised social work experience in a health care
          setting working directly with individuals. For facilities with 120 beds or less, medically-related
          social services must still be provided. However, there is no specific requirement that they be
          performed by a qualified social worker, on either a full-time or part-time basis.

          The OBRA of 1987 also mandates that each resident have a comprehensive initial assessment
          and periodic assessments, which include mental health evaluations. In addition to mental health
          evaluations, examples of medically-related social services include conducting psychosocial
          interventions, such as counseling residents and their families, and evaluating residents’ progress
          and functioning. Ideally, all identified psychosocial needs are addressed in a care plan, and all
          needed services are provided.

          Our review of skilled nursing facilities’ compliance with federal psychosocial service
          requirements is based on data from multiple sources. We used a random sample of 299
          recently admitted Medicare skilled nursing home beneficiaries to review the credentials of social
          workers associated with the skilled nursing facilities serving these beneficiaries. In addition, we
          reviewed the medical records of these same 299 SNF residents to determine the extent to
          which they were assessed for and received psychosocial services. We selected a separate
          sample of Medicare certified skilled nursing facilities and interviewed 84 social workers and
          nursing home administrators. Using data from a third sample, we interviewed 32 state
          surveyors. Finally, we analyzed Online Survey and Certification Reporting System (OSCAR)
          data and National Ombudsman Reporting System (NORS) data for deficiencies and complaints
          related to psychosocial services.

                                                 _________

Psychosocial Services in SNFs                        i                                       OEI-02-01-00610
FINDINGS

Almost all Medicare SNF beneficiaries have at least one
psychosocial service need; however, 39 percent of those with
needs have inadequate care plans and 46 percent of those with
care plans do not receive all planned services

          While 90 percent of Medicare beneficiaries have all their required minimum data set (MDS)
          assessments completed, 10 percent are missing one or more of their required assessments.1
          Our medical record review shows that, of those Medicare beneficiaries with either a formal
          MDS assessment or an informal psychosocial assessment, almost all (95 percent) have at least
          one psychosocial need identified during their SNF stay. Of these, only 61 percent have care
          plans that address all of the psychosocial needs identified during their SNF stay. Our review
          shows the following for those beneficiaries with a care plan: 54 percent of Medicare SNF
          residents receive all their psychosocial services as planned during their stay; 41 percent do not
          receive all of their planned psychosocial services; and, 5 percent receive none of their planned
          psychosocial services.


OSCAR data show over 15 percent of facilities have been cited for
psychosocial deficiencies and just over 1 percent of NORS
complaints relate to psychosocial services

          Analysis of OSCAR data shows just over 15 percent of SNFs were cited for one or more
          psychosocial service-related deficiency in each of the years 1998-2001. Psychosocial
          deficiencies represented just under 4 percent of all deficiencies in each of the years between
          1998 and 2001. However, interviews with a purposive sample of 32 state surveyors reveals
          that surveyors do not routinely look at all areas that SNFs can potentially be deficient in with
          regard to the provision of psychosocial services. An analysis of NORS data shows that
          complaints related to psychosocial services make up 1 percent of all nursing facility complaints.




          1
           When broken down by MDS period, 5 percent of beneficiaries who require a 5-day MDS do not get this
assessment; 7 percent of beneficiaries who require a 14-day MDS do not get one; and 12 percent of a relatively small
number of beneficiaries who require a 30-day MDS do not get this assessment.
                                                         _________
Psychosocial Services in SNFs                                ii                                               OEI-02-01-00610
Virtually all Medicare beneficiaries reside in skilled nursing
facilities that comply with the over 120-bed rule

          Our review of credentials indicates that 98 percent of beneficiaries (116 out of 118) in larger
          facilities receive psychosocial services from facilities that are in compliance with the over 120-
          bed regulation. Smaller facilities are not required by federal regulations to employ a qualified
          social worker; however, just over 80 percent (148 out of 181) of beneficiaries receive services
          in smaller facilities that employ a full-time social worker with either a bachelors degree or a
          graduate degree.


Forty-five percent of social workers report barriers that affect their
ability to provide psychosocial services

          Many social workers report numerous barriers that affect their ability to provide comprehensive
          psychosocial services to all SNF residents. Forty-five percent of social workers report that
          they face one or more of the following barriers: not having enough time; burdensome
          paperwork that limits their ability to provide psychosocial services; and, insufficient staff
          including social workers and other disciplines in the SNF. Over half of social workers (62
          percent) say that their role includes a number of responsibilities beyond providing the
          psychosocial services which most have been trained to provide. Only 19 percent of social
          workers report no obstacles in providing social work services. Barriers reported by social
          workers provide some insight into the reasons that not all residents are getting all of the
          psychosocial services they need.


CONCLUSION

          While SNFs with over 120 beds are complying with the federal requirement that SNFs employ
          a full-time social worker with at least a bachelors degree, over a third of SNF beneficiaries
          have incomplete psychosocial care plans and 46 percent of Medicare beneficiaries do not
          receive all of their planned psychosocial services during their SNF stay.

          We found that almost all (98 percent) of beneficiaries reside in SNFs that are in compliance
          with the over 120-bed rule. In addition, 82 percent of beneficiaries reside in smaller facilities
          that meet the larger facility standard, even though they are not required to do so. However, our
          medical record review determined that while 95 percent of those SNF Medicare beneficiaries
          with a psychosocial assessment have at least one psychosocial service need identified, 39
          percent of these residents do not have care plans



                                                 _________

Psychosocial Services in SNFs                        iii                                     OEI-02-01-00610
          that address all their psychosocial needs, and 41 percent do not receive all the services outlined
          in their care plans. In addition, we found that 5 percent of Medicare residents have none of
          their planned services provided. Our medical record review data, combined with social worker
          reports that some service barriers exist, lead us to conclude that not all residents are getting all
          of the psychosocial services they need. There is evidence that, despite the fact that SNFs are
          complying with the over 120-bed rule, there is not full compliance with the requirement that
          SNFs provide “medically related social services to attain or maintain the highest practicable
          physical, mental and psychosocial well-being of each resident.”2 Therefore, we question
          whether the present federal rule regarding social worker credentials is effective in achieving the
          desired level of psychosocial services for SNF residents.


RECOMMENDATIONS
          Oversight of the psychosocial service portion of the resident assessment process
          should be strengthened. We found evidence that substantial numbers of SNF beneficiaries
          have incomplete psychosocial care plans and many Medicare beneficiaries do not receive all of
          their planned psychosocial services during their SNF stay. Our medical record review reveals
          that 39 percent of beneficiaries do not have care plans that address all their psychosocial needs.
          In addition, 46 percent of SNF residents do not receive needed psychosocial services in
          accordance with their plan of care. The psychosocial assessment portion of the periodic
          resident assessment tools (comprehensive initial assessment, 5-day MDS, 14-day MDS, etc.)
          drives the preparation of care plans which are then used to document all needed services that
          should be provided. If the assessments or the care plans are incomplete, all needed services
          are not likely to be provided. Therefore, we recommend that the Centers for Medicare &
          Medicaid Services (CMS) strengthen the oversight processes associated with the psychosocial
          service portion of the resident assessment and the resulting care plans to ensure that SNF
          residents receive necessary and appropriate care.



AGENCY COMMENTS
          The CMS provided comments on our draft report. They concur with our recommendation that
          the oversight of the psychosocial service portion of the resident assessment process can be
          strengthened. Additionally, in their comments, they highlight actions they have taken to date in
          this regard, as well as on-going initiatives. CMS also provided a number of technical
          comments. As appropriate, these have been incorporated into this final report.




          2
            42 CFR §483.15(g)

                                                 _________

Psychosocial Services in SNFs                        iv                                       OEI-02-01-00610
                             TABLE                          OF              CONTENTS

                                                                                                                                             PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS
          Thirty-nine percent of beneficiaries have inadequate care plans; 

          forty-six percent do not receive all services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Over 15 percent of facilities have been cited for psychosocial deficiencies, and just over 

          1 percent of NORS complaints relate to psychosocial services . . . . . . . . . . . . . . . . . . . . . . . 9


          Virtually all Medicare beneficiaries reside in SNFs that comply with the over 120-bed 

          rule . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Forty-five percent of social workers report multiple barriers that affect their ability to provide

          psychosocial services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



APPENDICES
          A: Summary Analysis of Needs, Care Plans, and Services . . . . . . . . . . . . . . . . . . . . . . . . . 17

          B: Selected List of Recent OIG Nursing Home Inspections . . . . . . . . . . . . . . . . . . . . . . . . . 18

          C: Confidence Intervals For Key Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

          D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23



                                                                 _________

Psychosocial Services in SNFs                                        v                                                         OEI-02-01-00610
                                     INTRODUCTION


OBJECTIVE

          To determine whether Medicare skilled nursing facility residents are receiving psychosocial
          services in compliance with federal requirements.



BACKGROUND

          Recent studies have determined that the needs of the nursing home population, including
          psychosocial needs, are increasing. 3 In this study, we assessed the degree to which
          psychosocial services provided in skilled nursing facilities (SNFs) are in compliance with federal
          requirements. This inspection includes an analysis of the types and quantity of psychosocial
          services being provided, as well as the educational credentials of the professionals who are
          providing this care. There is no minimum federal requirement on the number of social workers
          or the educational credentials of social work staff in nursing homes with 120 beds or less. This
          inspection looks at the following: whether vulnerabilities exist in these smaller facilities; whether
          facilities with over 120 beds are complying with federal credential requirements; and, finally,
          whether or not psychosocial services that “attain or maintain the highest practicable physical,
          mental and psychosocial well-being of each resident”4 are being provided in all Medicare
          skilled nursing facilities.


Federal Regulations Regarding Social Services in Nursing Home


          The Omnibus Budget Reconciliation Act (OBRA) of 1987 requires SNFs5 to provide
          "medically-related social services to attain or maintain the highest practicable physical, mental
          and psychosocial well-being of each resident" and specifies that "the services


          3
           Sayhoun NR, Pratt LA, Lentzner H, Dey A, Robinson KN. The Changing Profile of Nursing Home
Residents: 1985-1997. Aging Trends; No.4. Hyattsville, Maryland: National Center for Health Statistics. 2001.

          4
            42 CFR §483.15(g)

          5
            The OBRA of 1987 requires both Medicare SNFs and Medicaid custodial care nursing facilities to meet this
criteria; however, the scope of this inspection is limited to Medicare nursing skilled facilities.

                                                        _________
Psychosocial Services in SNFs                               1                                                   OEI-02-01-00610
          provided or arranged by the facility must meet professional standards of quality." This law
          applies to all residents within the federally certified SNFs.


          The OBRA 1987 further states that when any federally-certified nursing facility has over 120
          beds, the facility is required to employ, on a full-time basis, a minimum of one social worker.
          Federal regulations state that this social worker must have at least a bachelors degree in social
          work, or in another human services field, and 1 year of supervised social work experience in a
          health care setting working directly with individuals.6 For facilities that have 120 beds or less,
          medically-related social services must still be provided. However, there is no specific
          requirement that they be performed by a qualified social worker.

          The OBRA 1987 also mandates that each nursing home resident have a comprehensive initial
          resident assessment, as well as periodic assessments using a standard form called the Minimum
          Data Set (MDS). Under Medicare payment rules, the Centers for Medicare & Medicaid
          Services (CMS) requires that a 5-day, 14-day, 30-day, and 60-day MDS be completed for all
          residents. These assessments include psychosocial assessment indicators that guide the
          preparation and maintenance of psychosocial-related care plans for each resident. Ideally, all
          identified psychosocial needs are addressed in a care plan, and for all care plans developed,
          there is documentation that all services are provided.


Services Provided by Nursing Home Social Workers


          State surveyor guidelines used to monitor the quality of care in SNFs spell out a wide array of
          medically-related social services that should be provided to SNF residents. These include the
          following: completing the mental health evaluation section of assessment plans, conducting
          psychosocial interventions, counseling residents and their families, making referrals to other
          service providers, advocating for the resident on interdisciplinary teams, evaluating the
          resident’s progress and functioning, preparing a discharge plan, and assisting the resident with
          palliative care.7


Nursing Home Survey and Certification Requirements


          All Medicare participating nursing homes must meet certain federal requirements. Nursing
          home certification is achieved through routine surveys. The CMS contracts with


          6
            42 CFR §483.15(g)

          7
            End of life planning

                                                 _________

Psychosocial Services in SNFs                        2                                        OEI-02-01-00610
          states to perform these surveys for Medicare and Medicare/Medicaid nursing homes. All
          nursing homes are subject to an unannounced standard survey “no later than 15 months after
          the date of the previous standard survey.” 8 If, during the standard survey, a nursing home is
          found to have provided substandard quality of care, an additional extended survey will be
          conducted within 2 weeks. During either type of survey, a surveyor may cite the nursing home
          for a deficiency, if that facility fails to meet specific requirements.


          Survey deficiencies are categorized and reported in the Online Survey Certification and
          Reporting System (OSCAR). The deficiencies that relate to social work services include the
          following: F251, which is used to cite a facility that has more than 120 beds and does not have
          a qualified social worker; F250, which is used to cite a facility that does not provide medically
          related social services to residents; F319, which cites a facility for failing to provide residents
          with appropriate treatment for mental or psychosocial problems; F320, which is cited when a
          facility fails to ensure that residents do not experience an avoidable decline in their psychosocial
          functioning; F246, which cites a facility for not having policies that accommodate residents'
          needs and preferences; and F243, which is cited in cases where residents have been denied the
          right to organize and participate in resident groups.



METHODOLOGY

          We obtained data for this study from a number of different sources. These include: a review of
          SNF social worker credentials; a medical record review of recently-admitted Medicare
          residents; an analysis of OSCAR and the National Ombudsman Reporting System (NORS)
          data; a telephone survey of nursing home administrators and social work staff; and, finally, a
          telephone survey of state surveyors. We pulled three separate samples for this study: one was
          a simple random sample from the universe of Medicare SNF residents; the second was a
          stratified random sample from the universe of Medicare SNFs, which was used only to conduct
          interviews with nursing home administrators and social workers; and, the last was a purposive
          sample of state survey and certification surveyors in eight states.


Nursing Home Resident Sample For Social Worker Credential and Medical Record
Review


          Our nursing home resident sample was used for both our social worker credentials review



          8
            42 CFR §488.308(a)

                                                 _________

Psychosocial Services in SNFs                        3                                         OEI-02-01-00610
          and our medical record review. We used National Claims History data to identify our universe
          of all residents, who were admitted between September 1, 2001, and November 30, 2001,
          whose stay was covered under Medicare Part A, and whose stay was greater than 7 days. We
          matched the stays to OSCAR current survey file data and limited the universe to the 303,891
          cases with matching OSCAR data. We then pulled a simple random sample of 330 Medicare
          beneficiaries. We sent letters to their associated skilled nursing facilities requesting medical
          records for each beneficiary and social work credentials of the relevant staff in these facilities.
          We received social work credentials and medical records from 305 SNFs, for a response rate
          of 92 percent. However, six beneficiaries were dropped from analysis because the
          documentation they submitted was insufficient for a review. As a result, our review of medical
          records and social worker credentials was based on 299 Medicare beneficiaries and their
          associated nursing homes.


          Although this sample was not stratified by bed size, we analyzed data associated with
          beneficiary experiences by bed size, as well as overall. When data was broken down by bed
          size, we compared the experiences of beneficiaries in SNFs with over 120 beds to those in
          facilities with 120 or fewer beds. This allowed us to project our findings to the universe of
          beneficiaries who reside in larger and smaller facilities within the time frame associated with our
          sampling frame (September-November 2001). However, because the unit of analysis was the
          beneficiary, we do not project our findings to the universe of all larger and smaller SNFs.


          Social Worker Credential Review. We requested information on the credentials of all social
          work staff from nursing homes associated with our sample of 330 nursing home residents.
          Nursing homes were asked to distinguish between employees of the facility and those who
          work on a consultant basis providing Part A reimbursed services. Nursing homes were also
          asked to provide information on the number of hours that social work staff work in an average
          week.


          Medical Record Review. For each of the residents in our sample, we requested complete
          clinical records from the date of the resident’s admission through the first 60 days of their stay in
          the nursing home (or their discharge, if they were discharged in less than 60 days). We
          requested the following documentation: admission sheets; MDS assessments; plans of care;
          social worker, nurse, and physician notes; medication administration records; psychological and
          psychiatric assessments; behavior management records; physician orders; and, if relevant,
          discharge planning notes. We used an independent contractor to conduct the medical record
          review. Together with the contractor, we developed a screening instrument to review
          residents’ records. This screening instrument was based on requirements for psychosocial




                                                  _________

Psychosocial Services in SNFs                         4                                        OEI-02-01-00610
          services included in the OBRA 1987 and CMS guidance9 on the provision of these social work
          services. Specifically, the medical record review looked at whether a given patient was
          evaluated for psychosocial needs; whether care plans were developed to address any such
          needs; and, finally, whether there was evidence that care plan items associated with
          psychosocial needs were provided as planned. Two licensed social workers with previous
          nursing home experience conducted the medical record reviews. A registered nurse provided
          quality assurance for all reviews.


Social Worker and Nursing Home Administrator Interviews

          Through a separate selection process, we selected a random sample of Medicare-certified
          skilled nursing facilities. This sample was used to conduct interviews with nursing home
          administrators and social workers. Using the OSCAR current survey file, we stratified this
          population based on bed size; however, when we made comparisons by strata, no differences
          were found. Therefore, the results we report are for all respondents, not by strata. Our total
          sample size was 92 SNFs. We were unable to conduct interviews with 8 of these, resulting in a
          response rate for this sample of 91 percent.


          We administered a telephone questionnaire to 84 nursing home administrators from our sample
          of skilled nursing facilities. This survey instrument included questions related to the provision of
          psychosocial services to Medicare residents reimbursed under Part A. During a separate
          telephone interview, nursing home social work directors in the same 84 nursing homes were
          asked a series of similar questions.


Nursing Home State Surveyor Interviews


          We selected a sample of state surveyors from eight states, based on the number of nursing
          home beds, the average deficiency rate per nursing home, the CMS regional office jurisdiction,
          and geographical location. They include: Alabama, California, Connecticut, Maryland,
          Missouri, New York, South Carolina, and South Dakota. We asked each of the state survey
          agencies for a list of all surveyors in their state who had been a nursing home surveyor for at
          least 3 years. We then selected a random sample of 4 surveyors in each of our 8 sampled
          states for a total of 32 respondents. Our response rate was 100 percent.




          9
               Including survey and certification deficiency (f-tag) specifications and references included in federal
regulations.


                                                              _________
Psychosocial Services in SNFs                                     5                                                      OEI-02-01-00610
          We spoke with surveyors about the practices they are currently using to monitor the provision
          of psychosocial services under Medicare Part A reimbursement rules. Because this was a small
          purposive sample, surveyor data cannot be projected to the universe.


Analysis of Nursing Home Survey and Certification and Ombudsman Data

          We analyzed data from OSCAR and NORS for all Medicare-certified skilled nursing facilities.
          We used OSCAR data to identify nursing home deficiencies related to inadequate provision of
          psychosocial services from 1998 to 2001. We used NORS data to look at related SNF
          complaint categories from 1999 to 2000.


Limitations


          Our methodology had the a number of limitations. First, our findings, based on social work
          credentials and SNF medical records, can be projected only to Medicare beneficiaries
          admitted to a Part A Medicare-covered stay between September 1, 2001, and November 30,
          2001, whose stay was greater than 7 days. Second, we assessed the degree to which required
          psychosocial services are being provided, based on a medical record review rather than on in-
          person clinical assessments of residents in our sample. Third, the interviews conducted with the
          purposive sample of state surveyors cannot be projected to the universe.


          This inspection was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




                                                _________

Psychosocial Services in SNFs                       6                                      OEI-02-01-00610
                                         FINDINGS

          Our review of skilled nursing facilities’ (SNF) compliance with Medicare psychosocial service
          requirements is based on data from a review of medical records of 299 SNF residents and a
          review of the credentials of the social workers in their facilities. Additionally, we interviewed
          social workers, nursing home administrators, and state surveyors. Finally we analyzed
          OSCAR and NORS data for deficiencies and complaints related to psychosocial services.
          Medicare requires that SNFs with over 120 beds have a full-time social worker with a
          minimum of a bachelors degree. We found that virtually all Medicare SNF beneficiaries reside
          in SNFs that are in compliance with the federal rule regarding social worker credentials.
          However, our medical record review determined that, while 95 percent of facility residents
          have at least one identified psychosocial service need, almost half do not receive all the services
          called for in their care plans. This medical record review data, combined with social worker
          reports that numerous barriers exist, indicate that not all residents are getting all of the
          psychosocial services they need.



Almost all Medicare SNF beneficiaries have at least one
psychosocial service need; however, 39 percent of those with such
needs have inadequate care plans, and 46 percent of those with
care plans do not receive all planned psychosocial services

          Our medical record review consisted of a review of all MDS assessments, other medical
          record documentation of psychosocial needs and care plans, as well as a review of
          psychosocial services provided. We looked at this documentation to determine the following:
          the proportion of Medicare beneficiaries that have their required MDS completed; the
          proportion of beneficiaries who have identified psychosocial needs; the proportion of Medicare
          beneficiaries who are receiving all required psychosocial assessments; the proportion of
          Medicare beneficiaries who have care plans for all of their psychosocial needs identified; and
          finally, the proportion of beneficiaries who subsequently have all services provided.


          Psychosocial assessments and identified psychosocial needs. Psychosocial needs
          assessments are performed one of two ways. The first is the MDS assessment, a formal
          process for identifying residents’ needs, which involves collecting information in a standardized
          fashion. The second, a less formal way of identifying psychosocial needs, occurs through
          routine staff interactions with the resident. Staff may document these psychosocial needs in
          their progress notes or on the patient’s chart. While 90 percent of


                                                 _________

Psychosocial Services in SNFs                        7                                        OEI-02-01-00610
          Medicare beneficiaries have all their required MDS assessments completed, 10 percent are
          missing one or more of their required assessments.10 One percent of all beneficiaries are
          missing both forms of assessments. Of those Medicare beneficiaries who have an assessment,
          our medical record review shows that almost all (95 percent) have at least one psychosocial
          need identified during their SNF stay. The types of psychosocial needs vary greatly. Table 1
          below shows the most common psychosocial service needs.


                                                          Table 1
                      Percentage of Beneficiaries With Psychosocial Need Identified
                                Need                                            Percent

                                Depression, anxiety, or sad mood                      42

                                Behavioral symptoms                                   20

                                Issues relating to past roles                         20

                                Indications of mood persistence                       18

                                Changes in mood                                       17

                                Lack of initiative or involvement                     14

                                Unsettled relationships                               13

                                Changes in behavioral symptoms                        10

                                                 Source: OIG medical record review, 2002


          Developed care plans. After an assessment is completed, a care plan should be developed
          that addresses each outstanding psychosocial need with an indication of the appropriate service
          to be provided. We found that 61 percent of Medicare beneficiaries with identified needs have
          care plans that address all of the psychosocial needs identified during their SNF stay.
          However, we found that 39 percent of beneficiaries have care plans that do not address all of
          their psychosocial needs. Five percent of these beneficiaries have none of their psychosocial
          needs addressed in a care plan.




          10
            When broken down by MDS period, 5 percent of beneficiaries, who require a 5-day MDS, do not get this
assessment; 7 percent of beneficiaries, who require a 14-day MDS, do not get one; and 12 percent of a relatively
small number of beneficiaries, who require a 30-day MDS, do not get this assessment.

                                                      _________
Psychosocial Services in SNFs                             8                                              OEI-02-01-00610
          Provided psychosocial services. All psychosocial services addressed in a care plan should
          be provided, as planned, at some point during a resident’s stay. Our review shows that 54
          percent of Medicare SNF residents who have one or more care plans receive all their
          psychosocial services as planned during their stay, while 41 percent do not receive all their
          planned psychosocial services. An additional 5 percent of beneficiaries receive none of their
          planned psychosocial services.


          Based on our review of all documented services provided, we found that the three most
          common psychosocial services that SNFs provide are: assessments (such as a social history),
          discharge planning, and medications for mood or behavioral problems. Other slightly less
          common psychosocial services include psychiatric or psychological consultations and social
          work visits with the resident.



OSCAR data show over 15 percent of facilities have been cited for
psychosocial deficiencies, and just over 1 percent of NORS
complaints relate to psychosocial services

          Psychosocial deficiencies reported in OSCAR. Federal survey and certification guidelines
          outline a number of items that surveyors are directed to look at during their routine nursing
          home surveys to determine whether or not facilities are providing adequate psychosocial
          services to residents. Our review of 6 psychosocial service-related deficiencies11 shows just
          over 15 percent of SNFs were cited for one or more of these psychosocial deficiencies in each
          of the years between 1998 and 2001. (See Table 2.) Facilities that were cited in 2001
          averaged 1.15 psychosocial deficiencies per facility. In addition, we found that psychosocial
          deficiencies represented just under 4 percent of all deficiencies in each of the years between
          1998 and 2001. It is worth noting that two psychosocial deficiency F-tags make up a
          disproportionate percentage of the six psychosocial deficiencies total. These two F-tags, F246
          and F250, are used to cite facilities without policies that accommodate residents’ needs and
          preferences and facilities that do not provide medically-related social services.



          11
             Most of the substandard quality of care deficiencies related to the provision of psychosocial services fall
under the quality of life section of federal regulations. These include the following: F251 – to cite a facility with more
than 120 beds not employing a qualified social worker on a full-time basis; F250 – to cite a facility that does not
provide medically-related social services; F319 – to cite a facility failing to provide residents with appropriate
treatment for mental or psychosocial problems; F320 – to cite facilities failing to ensure that residents do not have
avoidable decline in their psychosocial functioning; F246 – to cite facilities without policies that accommodate
residents’ needs and preferences; and, F243 – to cite facilities where residents have been denied the right to organize
and participate in resident groups.


                                                            _________
Psychosocial Services in SNFs                                   9                                                   OEI-02-01-00610
                                                             Table 2
                                Psychosocial Service Deficiencies, 1998-2001

                                       Year            Psychosocial           % of facilities
                                                      deficiencies as          with one or
                                                         % of all                 more
                                                       deficiencies           psychosocial
                                                                              deficiencies

                                       1998                 3.9 %                  17 %

                                       1999                 3.7 %                  18 %

                                       2000                 3.2 %                  17 %

                                       2001                 3.0 %                  16 %

                                                                    Source: OSCAR data, 1998-2001


          Nursing home complaint data reported in NORS. We also reviewed NORS data, which is
          complaint data collected by nursing home long term care ombudsmen whose role is to monitor
          the quality of care of nursing home residents. We looked at the following three psychosocial­
          related complaint categories in NORS: G.56, for mental health psychosocial service-related
          complaints; I.67, for availability and appropriateness of social service complaints; and, finally,
          I.68, for other activity and social service complaints. The NORS data show that complaints
          related to psychosocial services make up only 1 percent of all nursing facility complaints. In
          terms of numbers, these complaints total in the low 2000 range each year. (See Table 3.)

                                                             Table 3
                         Psychosocial Service-Related Complaints, 1999-2000

                                Year      % of all complaints             # of complaints

                                1999                1.3 %                      2211

                                2000                1.2 %                      2145
                                                      Source: NORS data, 1999-200012



          12
               Complaints cover both SNFs and nursing facilities.

                                                           _________
Psychosocial Services in SNFs                                  10                                   OEI-02-01-00610
          State surveyor interviews. In addition to reviewing OSCAR and NORS data, we
          interviewed 32 nursing home state surveyors. We asked them questions about how, if at all,
          they monitor the provision of psychosocial services and the credentials of those providing these
          services. Twenty-nine of the 32 surveyors said that, during a standard survey visit, they do
          look at whether psychosocial services are being provided to residents that need them. When
          we asked surveyors if they look at whether facilities are providing one specific psychosocial
          service – family counseling – 9 say “yes,” 10 say “no,” and the majority (13) say “sometimes.”
          Many of those that say “sometimes” indicate that they do not look at this unless they have
          reason to believe that a provider is deficient in this area. With regard to the review of social
          worker credentials, almost all surveyors we interviewed (31 of 32) indicate that, during a
          standard survey visit, they check to see if a nursing home employs a social worker. However,
          22 of the 32 report that they either do not look at the educational credentials of social workers,
          or they sometimes do so. Sixteen of the 22 who volunteer that they do not look at credentials
          all the time say they only review this information when they see indications of social work-
          related problems. Another two report that whether or not they look at this is dependent on the
          number of beds in the facility. With regard to whether or not facilities are providing needed
          psychosocial services, we heard consistently from sample surveyors that they do not routinely
          look at all areas in which SNFs can potentially be deficient with regard to the provision of
          psychosocial services.



Virtually all Medicare beneficiaries reside in skilled nursing
facilities that comply with the over 120-bed rule

          Medicare regulations require that facilities that have over 120 beds employ a minimum of one
          full-time social worker with a minimum of a bachelors degree.13 We analyzed social worker
          credential data both overall and based on the bed size of the SNFs associated with our sample
          beneficiaries. Of our 299 sample SNF beneficiaries, 118 had been recently admitted to SNFs
          with over 120 beds (larger facilities) and 181 beneficiaries had been admitted to facilities with
          120 beds or fewer (smaller facilities).

          Our review of credentials indicates that 98 percent of beneficiaries (116 out of 118) in larger
          facilities receive psychosocial services from facilities that are in compliance with


          13
             As defined by 42 CFR §481.15(g)(2)(3), “a facility with more than 120 beds must employ a qualified social
worker on a full-time basis. A qualified social worker is an individual with a bachelors degree in social work or a
bachelor’s degree in the human services field, including, but not limited to, sociology, special education,
rehabilitation counseling, and psychology, and 1 year of supervised social work experience in a health care setting
working directly with individuals.” Given the open ended nature of this requirement, for practical reasons, we limited
our analysis to a determination as to whether or not the social worker had a bachelors degree and worked in the
facility on a full-time basis.

                                                        _________
Psychosocial Services in SNFs                               11                                               OEI-02-01-00610
          the over 120-bed regulation. With regard to beneficiaries in larger facilities, 47 percent are
          cared for by social workers with a bachelors degree and 51 percent of beneficiaries are served
          by facilities that go beyond the minimum requirements and employ at least one social worker
          with a graduate degree.14 Two percent of beneficiaries receive services in larger SNFs that did
          not send us the educational credentials of any staff who provide psychosocial services.

          The over 120-bed social work rule does not apply to 61 percent of Medicare beneficiaries
          receiving services in skilled nursing facilities; these smaller facilities are not required by
          Medicare regulations to employ a social worker with a bachelors degree, on either a full-time
          or part-time basis. However, 82 percent of beneficiaries (148 out of 181) in smaller facilities
          receive services in facilities that employ a full-time social worker with a bachelors degree or
          higher, thus meeting the standard that applies to larger facilities, even though they are not
          required by federal rules to do so. Five percent of SNF beneficiaries receive services in
          smaller facilities that employ a social worker with an associates or high school degree. The
          remaining 13 percent of Medicare beneficiaries receive care in smaller facilities that did not
          provide us with the educational credentials of their psychosocial service providers. Charts 1
          and 2 below detail the highest degree held by a staff member in both larger and smaller skilled
          nursing facilities.
                                 Chart 1                                                   Chart 2
                 Social Worker Education                                    Social Worker Education
                   in Larger Facilities                                       in Smaller Facilities




                Source: Social work credentials from SNFs associated with sample of nursing home residents, 2002

We sought to determine whether or not SNFs, whose social workers have less education, are not as
likely to meet federal requirements regarding the provision of psychosocial services. In order to test
this hypothesis, at each educational level, we looked at the degree to which psychosocial services were
provided to residents as planned. Because there were so few facilities in our


          14
             Percentage is based on the highest education-level social worker in each facility.

                                                           _________
Psychosocial Services in SNFs                                  12                                            OEI-02-01-00610
          sample that employ only a high school or associate level social worker, our analysis was
          inconclusive.


Forty-five percent of social workers report barriers that affect their
ability to provide psychosocial services

          Many social workers report numerous barriers that affect their ability to provide comprehensive
          psychosocial services to all SNF residents. Forty-five percent of social workers report that
          they face one or more of the following barriers: not having enough time; burdensome
          paperwork that limits their ability to provide psychosocial services; and, insufficient staff in the
          SNF, including social workers and other disciplines. Over half of social workers (62 percent)
          say that their role includes a number of responsibilities beyond providing the psychosocial
          services which most have been trained to provide. The various other tasks social workers
          report performing range from running errands outside the facility to assisting with dining room
          arrangements to getting residents’ eyeglasses fixed. Only 19 percent of social workers report
          no obstacles in providing social work services. Time constraints and paperwork demands are
          also the top two obstacles which nursing home administrators report that their nursing home
          faces in providing comprehensive social work services to all residents. Barriers reported by
          social workers and nursing home administrators provide a degree of insight into some of the
          reasons that not all residents are getting all of the psychosocial services they need.




                                                 _________

Psychosocial Services in SNFs                        13                                        OEI-02-01-00610
                                     CONCLUSION

          While SNFs with over 120 beds are complying with the federal requirement that SNFs employ
          a full-time social worker with at least a bachelors degree, over a third of SNF beneficiaries
          have incomplete psychosocial care plans and 46 percent of Medicare beneficiaries do not
          receive all of their planned psychosocial services during their SNF stay.

          We found that almost all (98 percent) of beneficiaries reside in SNFs that are in compliance
          with the over 120-bed rule. In addition, 82 percent of beneficiaries reside in smaller facilities
          that meet the larger facility standard, even though they are not required to do so. However, our
          medical record review determined that while 95 percent of those SNF Medicare beneficiaries
          with a psychosocial assessment have at least one psychosocial service need identified, 39
          percent of these residents do not have care plans that address all their psychosocial needs, and
          41 percent do not receive all the psychosocial services outlined in their care plans. In addition,
          we found that 5 percent of Medicare residents have none of their planned psychosocial services
          provided. Our medical record review data, combined with social worker reports that some
          service barriers exist, lead us to conclude that not all residents are getting all of the psychosocial
          services they need. There is evidence that, despite the fact that SNFs are complying with the
          over 120-bed rule, there is not full compliance with the requirement that SNFs provide
          “medically related social services to attain or maintain the highest practicable physical, mental
          and psychosocial well-being of each resident.”15 Therefore, we question whether the present
          federal rule regarding social worker credentials is effective in achieving the desired level of
          psychosocial services for SNF residents.




          15
             42 CFR §483.15(g)

                                                  _________

Psychosocial Services in SNFs                         14                                        OEI-02-01-00610
                                RECOMMENDATION

          Oversight of the psychosocial service portion of the resident assessment process
          should be strengthened. We found evidence that substantial numbers of SNF beneficiaries
          have incomplete psychosocial care plans, and many Medicare beneficiaries do not receive all of
          their planned psychosocial services during their SNF stay. Our medical record review revealed
          that 39 percent of beneficiaries do not have care plans that address all their psychosocial needs.
          In addition, 46 percent of SNF residents do not receive needed psychosocial services in
          accordance with their plan of care. The psychosocial assessment portion of the periodic
          resident assessment tools (comprehensive initial assessment, 5-day MDS, 14-day MDS, etc.)
          drives the preparation of care plans, which are then used to document all needed services that
          should be provided. If the assessments or the care plans are incomplete, all needed services
          are not likely to be provided. Therefore, we recommend that CMS strengthen the oversight
          processes associated with the psychosocial service portion of the resident assessment and the
          resulting care plans to ensure that SNF residents receive necessary and appropriate care.




                                                _________

Psychosocial Services in SNFs                       15                                       OEI-02-01-00610
                                AGENCY COMMENTS

          The CMS provided comments on our draft report. They concur with our recommendation that
          the oversight of the psychosocial service portion of the resident assessment process can be
          strengthened. Additionally, in their comments, they highlight actions they have taken to date in
          this regard, as well as on-going initiatives. CMS also provided a number of technical
          comments. As appropriate, these have been incorporated into this final report.




                                                _________

Psychosocial Services in SNFs                       16                                     OEI-02-01-00610
                                                                                                APPENDIX A



                Summary Analysis of Needs, Care Plans, and Services

When looking at the overall picture of care provided to all Medicare beneficiaries in SNFs, 41 percent
of Medicare beneficiaries have all their psychosocial needs addressed in care plans and receive all
psychosocial services as planned. On the other end of the spectrum is the following picture: 17 percent
of beneficiaries have all needs addressed in a care plan, but not all services are provided; and 38
percent of beneficiaries do not have all needs addressed in a care plan and not all services are
provided. Three percent of beneficiaries have assessments that do not identify any needs, and 1
percent of beneficiaries do not receive any assessments during their stay. (See Chart 3.)

                                            Chart 3
                            Needs Addressed and Services Provided

                                                                  All needs are addressed
                                                                  in care plans; all services
                                                                  are provided
                                  1%
                                3%                                All needs are addressed
                                                                  in care plans; not all
                                                                  services are provided

                                                                  Not all needs are
                                                 41%              addressed in care plans;
                     38%                                          not all services are
                                                                  provided
                                                                  Assessments identify no
                                                                  needs



                                                                  No assessments
                                                                  conducted
                                       17%




                                                  Source: OIG medical record review, 2002




                                              _________

Psychosocial Services in SNFs                     17                                              OEI-02-01-00610
                                                                            APPENDIX B




     Selected List of Recent Office of Inspector General Nursing Home
                                Inspections


          Physicial, Occupational, and Speech Therapy for Medicare Nursing Home Patients:
          Medical Necessity, Cost and Documentation Under the $1500 Therapy Caps,
          OEI-09-99-00560, August 2001.


          Medicare Beneficiary Access to Skilled Nursing Facilities - 2001, OEI-02-01-00160,
          July 2001.


          Trends in the Assignment of Resource Utilization Groups by Skilled Nursing
          Facilities, OEI-02-01-00280, July 2001.


          Younger Nursing Facility Residents with Mental Illness: Preadmission Screening and
          Resident Review Implementation and Oversight, OEI-05-99-00700, January 2001.


          Younger Nursing Facility Residents with Mental Illness: An Unidentified

          Population, 

          OEI-05-99-00701, January 2001.



          Medicare Payments for Psychiatric Services in Nursing Homes: A Follow-Up,
          OEI-02-99-00140, January 2001.


          Nursing Home Resident Assessment: Quality of Care, OEI-02-99-00040, January 2001.


          Nursing Home Resident Assessment: Resource Utilization Group, OEI-02-99-00041,
          January 2001.




                                           _________

Psychosocial Services in SNFs                  18                                OEI-02-01-00610
                                                                                         APPENDIX C




                                 Confidence Intervals For Key Findings



          We calculated confidence intervals for key findings. The point estimate and 95 percent
          confidence interval are given for each of the following:


                                KEY FINDINGS                           N      POINT          CONFIDENCE
                                                                             ESTIMATE          INTERVAL

 Ninety percent of Medicare beneficiaries have all their               299     90%             87% - 93%
 required MDS assessments completed.

 Of the Medicare beneficiaries who have an assessment, 95              296     95%             93% - 98%
 percent have at least one need identified during their SNF
 stay.

 Thirty-nine percent of SNF beneficiaries have care plans              288     39%             33% - 45%
 that do not address all of Medicare beneficiaries’
 psychosocial needs.

 Forty-six percent of SNF beneficiaries do not receive all             275     46%             40% - 52%
 their planned psychosocial services.

 Forty-one percent of Medicare beneficiaries have all their            299     41%             35% - 47%
 psychosocial needs addressed in care plans and receive all
 psychosocial services as planned.

 Seventeen percent of Medicare beneficiaries have all their            299     17%             13% - 21%
 psychosocial needs addressed in care plans, but not all
 services are provided.

 Thirty-eight percent of beneficiaries do not have all needs           299     38%             32% - 44%
 addressed in a care plan and not all services are provided.

 Ninety-eight percent of beneficiaries receive psychosocial            118     98%             96% - 100%
 services from facilities that are in compliance with the over
 120-bed regulation.

 Forty-seven percent of beneficiaries are cared for in larger          118     47%             38% - 56%
 facilities that employ at least one social worker with a
 bachelors degree.



                                                           _________

Psychosocial Services in SNFs                                    19                     OEI-02-01-00610
 Fifty-two percent of beneficiaries are cared for in larger                118   52%   43% - 61%
 facilities that employ at least one social worker with a
 graduate degree.

 The over 120-bed social work rule does not apply to 61
 percent of beneficiaries receiving services in skilled nursing
                                                                           299   61%   56% - 67%
 facilities.

 Eighty-two percent of beneficiaries receive services in                   181   82%   76% - 88%
 smaller facilities that employ a social worker with either a
 bachelors degree or a graduate degree.

 Twenty-eight percent of social workers report that one of                 84    28%   17% - 40%
 the barriers they face is not having enough time.*

 Nineteen percent of social workers say that burdensome                    84    19%   9% - 29%
 paperwork limits their ability to provide psychosocial
 services.*

 Six percent of social workers say that not having enough                  84    6%    2% - 10%
 staff, including social workers and other disciplines, is also
 an obstacle.*

 Over half of social workers (62 percent) say that their role
 includes a number of responsibilities beyond providing the
                                                                           84    62%   50% - 74%
 psychosocial services which most have been trained to
 provide.

 Only 19 percent of social workers report no obstacles in                  84    19%   9% - 29%
 providing social work services.

* Presented as unduplicated obstacles on page 13.




                                                              _________

Psychosocial Services in SNFs                                     20                   OEI-02-01-00610
                                                                                    APPENDIX D




                                     AGENCY COMMENTS


          In this appendix, we present in full the comments from the Centers for Medicare & Medicaid
          Services.




                                              _________

Psychosocial Services in SNFs                     21                                    OEI-02-01-00610
                                _________
Psychosocial Services in SNFs       22      OEI-02-01-00610
                                ACKNOWLEDGMENTS

This report was prepared under the direction of John I. Molnar, Regional Inspector General for
Evaluation and Inspections in the New York Regional Office, and Jodi Nudelman, Assistant Regional
Inspector General. Other principal Office of Evaluation and Inspections staff who contributed include:


Ellen Vinkey, Project Leader                           Sandy Khoury, Program Specialist. Division

Christi Macrina, Lead Analyst                           of Medicare and Medicaid, Baltimore

Judy Kellis, Program Analyst

David Rudich, Program Analyst

Renee Dunn, Former Deputy Regional Inspector General



Technical Assistance

Brian Ritchie, Director Technical Support Staff, Baltimore

Barbara Tedesco, Mathematical Statistician, Baltimore





                                For information or copies of this report, please contact

                                           the Office of Inspector General’s

                                       Public Affairs office at (202) 619-1343.



                     Reports are also available on the World Wide Web at our home page address:

                                               http://www.oig.hhs.gov





                                                     _________

Psychosocial Services in SNFs                            23                                        OEI-02-01-00610
